tHmteb States Court of appeals!
jfor tlje Cigfjtlj Circuit

No. 20-1993

In re: Wilma M. Pennington-Thurman,
Debtor.

Wilma M. Pennington-Thurman,
Appellant,
v.

Federal Home Loan Mortgage Corporation; Millsap & Singer, LLC; Bank of
America, N.A.,
Appellees,
Office of U.S. Trustee,
U.S. Trustee.

Appeal from United States District Court
for the Eastern District of Missouri - St. Louis

Submitted: February 5, 2021
Filed: February 10, 2021
[Unpublished]

Appellate Case: 20-1993

Page: 1

Date Filed: 02/10/2021 Entry ID: 5003042

Before COLLOTON, MELLOY, and GRASZ, Circuit Judges.

PER CURIAM.
Wilma Pennington-Thurman appeals the district court’s1 order affirming the
bankruptcy court’s order denying her motion to reopen her bankruptcy case. We
conclude that the bankruptcy court did not abuse its discretion. The adversary case
that Pennington-Thurman sought to pursue addressed previously litigated issues or
otherwise lacked merit, so reopening would have been futile. See Apex Oil Co. v.
Sparks (In re Apex Oil Co.), 406 F.3d 538, 541 (8th Cir. 2005); Mid-City Bank v.
Skyline Woods Homeowners Ass ’n (In re Skyline Woods Country Club, LLC), 431
B.R. 830, 837-38 (B.A.P. 8th Cir. 2010); Realan Inv. Partners, LLLP v. Meininger
(In re Land Res., LLC), 505 B.R. 571, 582 (M.D. Fla. 2014).
The judgment is affirmed. See 8th Cir. R. 47B.

‘The Honorable Henry E. Autrey, United States District Judge for the Eastern
District of Missouri.
-2-

Appellate Case: 20-1993

Page: 2

Date Filed: 02/10/2021 Entry ID: 5003042

■r

UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT

No: 20-1993

In re: Wilma M. Pennington-Thurman
Debtor

Wilma M. Pennington-Thurman
Appellant
v.
Federal Home Loan Mortgage Corporation; Millsap & Singer, LLC; Bank of America, N.A.
Appellees
Office of U.S. Trustee
U.S. Trustee
*

Appeal from U.S. District Court for the Eastern District of Missouri - St. Louis
(4:19-CV-03093-HEA)
JUDGMENT
This appeal from the Bankruptcy Appellate Panel was submitted on the record and briefs
of the parties.
After consideration, it is hereby ordered and adjudged that the judgment of the
Bankruptcy Appellate Panel in this cause is affirmed in accordance with the opinion of this
Court.
February 10, 2021
Order Entered in Accordance with Opinion:
Clerk, U.S. Court of Appeals, Eighth Circuit.
/s/ Michael E. Gans

UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
No: 20-1993
In re: Wilma M. Pennington-Thurman

Wilma M. Pennington-Thurman
Appellant
v.
Federal Home Loan Mortgage Corporation, et al.
Appellees
Office of U.S. Trustee

Appeal from U.S. District Court for the Eastern District of Missouri - St. Louis
(4:19-cv-03093-HEA)
ORDER
The petition for rehearing by the panel is denied.
March 30,2021

Order Entered at the Direction of the Court:
Clerk, U.S. Court of Appeals, Eighth Circuit.
/s/ Michael E. Gans

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF MISSOURI
EASTERN DIVISION
IN RE:

)
)

WILMA M. PENNINGTON-THURMAN,
Debtor

)
)
)
)

WILMA M. PENNINGTON-THURMAN,

)
)

Appellant,

)
)

vs.

) Case No. 4:19CV3093 HEA
)

FEDERAL HOME LOAN MORTGAGE
CORPORATION, et al.,

)
)
)

Appellees.

)

JUDGMENT
In accordance with the Opinion, Memorandum and Order dated this same
date,
IT IS HEREBY ORDERED, ADJUDGED AND DECREED that the
Order of the Bankruptcy Court denying Appellant’s Motion to Reopen her Chapter
7 Bankruptcy Proceeding is AFFIRMED.
Dated this 4th day of May, 2020.
HENtfV EDWA&D AJJTREY
UNITED STATES DISTRICT JUDGE

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF MISSOURI
EASTERN DIVISION

IN RE:

)
)

WILMA M. PENNINGTON-THURMAN,

)
)

Debtor

)
)
)
)

WILMA M. PENNINGTON-THURMAN,

)
)

Appellant,

)
)

) Case No. 4:19CV3093 HEA

vs.

)

FEDERAL HOME LOAN MORTGAGE
CORPORATION, et al.,

)
)
)

Appellees.

)

OPINION. MEMORANDUM AND ORDER
This matter is before the Court on Appellant’s Notice of Appeal of the Order
Denying Motion to Reopen Bankruptcy Case filed October 23, 2019, [Doc. No. 1],
Appellant’s Motion for Leave to Appeal Pursuant to 28 U.S.C. § 158(a)(3), [Doc.
No. 2], Appellant’s “Motion for Relief in the U.S. District Court First Sought in
the U.S. Bankruptcy Court and Denied,” [Doc. No. 4], Appellees Millsap and
Singer, I T O and Federal Home Loan Mortgage Corporation Corporation’s Motion
to Dismiss, [Doc. No. 10]. Also before the Court are the briefs filed by Appellant

and Appellee Bank of America NA.
Appellant appeals the Bankruptcy Court for the Eastern District of
Missouri’s Order denying Appellant’s Motion to reopen her Chapter 7 Bankruptcy.
Appellees’ Millsap and Singer LLC and Federal Home Loan Mortgage
Corporation Corporation's move to dismiss Appellant's appeal. For the reasons set
forth below, Appellees’ Motion to Dismiss will be denied. The Bankruptcy Court
Order Denying Appellant’s Motion to Reopen will be affirmed.
Background
Appellee Bank of America has provided a detailed background:
More than nine years ago, the trustee of Pennington-Thurman’s bankruptcy
estate settled claims that she had asserted against Bank of America.
Pennington-Thurman received a discharge of her personal liability on her
mortgage loan from Bank of America. Her bankruptcy case was closed in
late 2011. Because the discharge did not affect the bank’s lien on
Pennington-Thurman’s property, see In re Pennington-Thurman, 559 F.
App’x 600 (8th Cir. 2014), the bank pursued foreclosure. In response,
Pennington-Thurman began a litigation campaign that has continued for
years after the property was sold to the Federal Home Loan Mortgage
Corporation (“Freddie Mac”) at foreclosure in November 2014. In summary:
• Pennington-Thurman first requested the bankruptcy court to reopen the
bankruptcy case to permit her to sue Bank of America for allegedly violating
the discharge injunction. The court denied this relief because such a claim
would have no merit, and that decision was affirmed by two appellate courts.
See In re Pennington-Thurman, 499 B.R. 329, 330 (B.A.P. 8th Cir. 2013),
affd, 559 F. App’x 600 (8th Cir. 2014). The Supreme Court of the United
States denied Pennington-Thurman’s petition for certiorari and her petition
for rehearing. See Pennington-Thurman v. Bank ofAmerica, N.A., 574 U.S.
1034 (2014), reh’g denied, 135 S. Ct. 1489 (2015).
2

6

• Pennington-Thurman sued the bank and others in state court in 2014 in an
effort to forestall foreclosure. The Missouri Court of Appeals dismissed an
interlocutory appeal by Pennington-Thurman in Case No. ED 102300. After
the circuit court entered a final judgment dismissing her claims, the court of
appeals affirmed in part and dismissed in part. Pennington-Thurman v. Bank
of America, N.A., 486 S.W.3d 471 (Mo. App. E.D. 2016). The Supreme
Court of Missouri overruled her transfer application in Case No. SC 95620.
• After the foreclosure sale, Pennington-Thurman attempted to remove an
unlawful-detainer action filed against her by Freddie Mac to this Court.
Judge White remanded the case for lack of subject-matter jurisdiction. Bank
ofAmerica v. Pennington-Thurman, No. 4:15-cv-381 (E.D. Mo. Sept. 17,
2015).2 The Eighth Circuit dismissed Pennington-Thurman’s appeal. Bank
ofAmerica v. Pennington-Thurman, No. 15-3168 (8th Cir. Oct. 19, 2015).
• Pennington-Thurman sued Freddie Mac and the United States in this Court.
Judge Sippel dismissed that case as frivolous. Pennington-Thurman v.
United States, No. 4:15-cv-1628 (E.D. Mo. Oct. 28, 2015). The court of
appeals summarily affirmed. Pennington-Thurman v. United States, No. 153593 (8th Cir. Feb. 19, 2016). Judge Sippel later denied a motion to reopen
that case, and the court of appeals summarily affirmed that decision as well.
Pennington-Thurman v. United States, No. 4:15-cv-1628 (E.D. Mo. Oct. 27,
2016), affd, No. 16-4346 (8th Cir. Feb. 27, 2017).
• Pennington-Thurman filed her second motion to reopen the bankruptcy
case in 2016, alleging “fraud on the court.” The bankruptcy court denied the
motion, describing it as “nothing more than a demonstration of her
fundamental misunderstanding of the bankruptcy process and administration
of a bankruptcy estate.” The Bankruptcy Appellate Panel dismissed
Pennington-Thurman’s appeal for failure to pay the filing fee.
• Pennington-Thurman petitioned the Supreme Court of the United States
unsuccessfully for a writ of prohibition. In re Pennington-Thurman, 137 S.
Ct. 83 (2016).
• Pennington-Thurman petitioned the Supreme Court of Missouri for a writ
of prohibition in connection with the unlawful-detainer case. The court
3

B

denied her petition. State ex rel. Pennington-Thurman v. Hess, No. SC
96526 (Mo. June 29,2017).
• Pennington-Thurman sued the bankruptcy judge, the trustee, the bank, and
dozens of other defendants in this Court. Judge Perry dismissed this case on
the basis of res judicata. Pennington-Thurman v. Schermer, No. 4:17-cv1093 (E.D. Mo. Apr. 6, 2017). The Eighth Circuit affirmed. PenningtonThurman v. Schermer, 713 F. App’x 519 (8th Cir. 2018).
• Pennington-Thurman appealed the state court’s unlawful-detainer
judgment in favor of Freddie Mac. The court of appeals dismissed the
appeal. Federal Home Loan Mortgage Corporation Corp. v. PenningtonThurman, No. ED 105058 (Mo. App. E.D. July 3, 2017).
• Pennington-Thurman filed suit against the United States, the bankruptcy
court, and Attorney General Jeff Sessions in this Court. Judge Sippel
dismissed that complaint for failure to state a claim. Pennington-Thurman v.
U.S.A., No. 4:17-cv-2536, 2017 WL 4810985 (E.D. Mo. Oct. 25, 2017). The
Eighth Circuit summarily affirmed. Pennington-Thurman v. U.S.A., No. 173357, 2018 WL 2046395 (8th Cir. Apr. 4, 2018).
• Pennington-Thurman filed a motion in state court to reopen the 2009
lawsuit against Bank of America that was resolved by the trustee in the 2010
settlement approved by the bankruptcy court. The circuit court denied that
motion, and the Missouri Court of Appeals affirmed. Pennington-Thurman
v. Bank ofAmerica, N.A., 556 S.W.3d 68 (Mo. App. E.D. 2018).3
• Pennington-Thurman filed a petition for a writ of habeas corpus in the
Supreme Court of the United States, identifying the bankruptcy judge and
dozens of others as respondents and claiming that she was “not physically
incarcerated, but mentally incarcerated by those in authority.” The Court
denied her leave to proceed in forma pauperis, citing its rule governing
frivolous and malicious filings, and dismissed the petition. In re PenningtonThurman, 139 S. Ct. 267 (2018).
• The documents attached to Pennington-Thurman’s motion to reopen
indicate that she also filed a frivolous lien against the property, requiring
Freddie Mac to file suit to quiet title. Bank of America is not a party to that
litigation, but Pennington-Thurman’s attachments and CaseNet indicate that
4

b

Freddie Mac prevailed and obtained a money judgment against her, and she
has appealed to the Missouri Court of Appeals in Case No. ED 107853.
Discussion
Title 28, United States Code, Section 158 provides: “The district courts of the
United States shall have jurisdiction to hear appeals (1) from final judgments,
orders, and decrees... of bankruptcy judges entered in cases and proceedings
referred to the bankruptcy judges.” An appeal to a district court “shall be taken
only to the district court for the judicial district in which the bankruptcy judge is
serving.” 28 U.S.C. § 158(a). “To elect to have an appeal heard by a district court,
a party must: (1) file a statement of election that conforms substantially to the
appropriate Official Form; and (2) do so within the time prescribed by 28 U.S.C. §
158(c)(1).” Fed. R. Bank. P. 8005. Appellant elected to appeal to the district court
pursuant to 28 U.S.C. § 158(a)(1). Although Appellees Millsap and Singer, LLC
and the Federal Home Loan Mortgage Corporation urge dismissal because
Appellant failed to designate the record and failed to submit a statement of the
issues, Appellant has subsequently attempted to do so. Jurisdiction in this Court is
proper, and this appeal will not be dismissed for failure to comply with the Federal
Rules of Bankruptcy Procedure.
“When a bankruptcy court’s judgment is appealed to the district court, the
district court acts as an appellate court and reviews the bankruptcy court’s legal
5

b

determinations de novo and findings of fact for clear error.” In re Falcon Prods.,
Inc., 497 F.3d 838, 840 (8th Cir. 2007). In appealing to the district court, appellant
challenges the determination made by the Bankruptcy Court and asks the district
court to review the Bankruptcy Courts determinations.
Appellees Millsap and Singer, LLC and the Federal Home Loan Mortgage
Corporation argue Appellant's appeal should be dismissed as constitutionally moot
and as equitably moot. Appellees also argue that Appellant lacks standing to bring
this appeal.
Constitutional Mootness
Without citation to any Eighth Circuit case, Appellees Millsap and Singer
LLC and the Federal Home Loan Mortgage Corporation argue the Eighth Circuit
has “endorsed dismissal of an appeal where the facts render relief impossible.”
This analysis, however, is not before this Court. The issue before the Court is^
whether the Bankruptcy Court properly denied the Motion to Reopen, not whether
Appellant could possibly obtain relief on substantive matters decided in the
Bankruptcy Court had the Bankruptcy Court granted the Motion.
Equitable Mootness
Appellees argue Appellant's appeal should be dismissed as equitably moot.
Relying on FishDish, LLC v. VeroBlue Farms USA, Inc., No. 19-CV-3026 CJW,
6

A

2019 U.S. Dist. LEXIS 172676, at *15-16 (N.D. Iowa Oct. 4, 2019), Appellees
argue
The doctrine of equitable mootness implicates two contrasting public policy
concerns. First, there is an important interest in bankruptcy law to promote
finality so court-approved reorganizations are able to go forward in reliance
on an approval. In re Info. Dialogues, Inc., 662 F.2d at 477. Second, there is
a competing interest in a party's ability to secure review of a bankruptcy
order which adversely affects the party. Id. A reviewing court must carefully
balance these two considerations. See In re Charter Commc'ns, Inc., 691
F.3d 476, 478 (2d Cir. 2012).
Id. Further, Appellees urge the FishDish Court’s conclusion:
This Court finds the policy of finality to be more important than the public
policy of permitting an appeal in this case. Thus, this factor weighs in favor
of concluding the doctrine of equitable mootness applies.
Id at *16-17. As the FishDish Court recognized, the doctrine of equitable
mootness sets out a detailed approach to dismissal of bankruptcy appeals in
situations involving Chapter 13 reorganizations and the consummation of the plan
of reorganization. “The doctrine of equitable mootness applies in bankruptcy
proceedings to ‘promote an important policy of bankruptcy law that courtapproved reorganizations be able to go forward in reliance on such approval unless
a stay has been obtained.’ In re Info. Dialogues, Inc., 662 F.2d 475, 477 (8th Cir.
1981).” Id. The matter before the Court is an appeal from an Order in a Chapter 7
proceeding, and as such, Appellees have failed do demonstrate that the doctrine
applies.
7

t

Standing to Appeal Bankruptcy Decision
Appellees further argue that appellant does not have standing to appeal the
Bankruptcy Court’s decision because Appellant no longer has an interest in the
property at issue. “Standing in a bankruptcy appeal is narrower than Article III
standing.” Opportunity Fin., LLC v. Kelly, 822 F.3d 451, 458 (8th Cir. 2016)
(citation omitted). The Eighth Circuit has consistently “applied a person aggrieved
standard” to determine appellate standing in Bankruptcy cases. In re O & S
Trucking, Inc. v. Mercedes Benz Fin. Servs. USA, 811 F.3d 1020, 1023 (8th Cir.
2016). The narrower standing requirement reflects a need to limit collateral appeals
and advances the public policy interest of providing finality in bankruptcy
proceedings. See Opportunity Fin., LLC, 822 F.3d at 458; Spenlinhauer v.
O'Donnell, 261 F.3d 113, 118 n.4 (1st Cir. 2001).
“An appellant is a party aggrieved if the bankruptcy court order diminishes
the person’s property, increases the person's burdens, or impairs the person’s
rights.” Opportunity Fin., LLC, 822 F.3d at 458. “Under the person aggrieved
doctrine, the appellant has the burden to demonstrate that the challenged order
directly and adversely affect[ed] his pecuniary interests.” In re O & S Trucking,
Inc., 811 F.3d at 1023. Potential pecuniary harm that is several steps removed from
the challenged order is not sufficient to satisfy the aggrieved person requirement.
8

6

Opportunity Fin., LLC, 822 F.3d at 458. For standing to exist there must be a
“direct pecuniary impact.” Id.
Appellant satisfies the standing requirement. Through moving to reopen
her bankruptcy proceeding, Appellant was attempting to argue that the divestiture
of her interest in the property was improper.
Issue on Appeal
The issue presented for this Court’s Appellate review is whether the
bankruptcy court abuse its discretion in denying Appellant’s third motion to reopen
her Chapter 7 bankruptcy case.
A decision denying a motion to reopen is reviewed for an abuse of
discretion. Apex Oil Co. v. Sparks (In re Apex Oil Co.), 406 F.3d 538, 541
(8th Cir.2005). Under this standard, the Court’s review focuses upon
whether there was a failure to apply the proper legal standard or whether the
findings of fact are clearly erroneous. Official Comm. Of Unsecured
Creditors v. Farmland Indus. (In re Farmland Indus.), 397 F.3d 647, 650—
51 (8th Cir.2005). A bankruptcy court's ruling will not be reversed unless
there is a “ ‘definite and firm conviction that the bankruptcy court
committed a clear error of judgment in the conclusion it reached upon a
weighing of the relevant factors.’ ” Apex Oil Co., 406 F.3d at 541 (quoting
Dworsky v. Canal St. Ltd. P'ship (In re Canal St. Ltd. P’ship), 269 B.R. 375,
379 (8th Cir. BAP 2001)).
In re Pennington-Thurman, 499 B.R. 329, 331 (B.A.P. 8th Cir. 2013), affd, 559 F.
App'x 600 (8th Cir. 2014).
Recognizing that Appellant is proceeding pro se, and thus applying a more
liberal interpretation of Appellant’s brief, the Court concludes Appellant has failed
9

&

to establish that the Bankruptcy Court’s denial of her motion to reopen was a clear
error of judgment. Appellant merely urges that her previous arguments
throughout this lengthy legal marathon were correct, and therefore, she should get
her way and have her Bankruptcy proceeding reopened to relitigate issues that
have long been resolved.
Bankruptcy Code §350(b) states that “[a] case may be reopened in the court
in which such case was closed to administer assets, to accord relief to the debtor, or
for other cause.” 11 U.S.C. § 350(b). The decision whether to grant a motion to
reopen a case is committed to the discretion of the court, and a request to reopen
should be granted “only where a compelling reason for reopening the case is
demonstrated.” Mid-City Bank v. Skyline Woods Homeowners Ass n. (In re Skyline
Woods Country Club, LLC), 431 B.R. 830, 835 (B.A.P. 8th Cir. 2010), offd, 636
F.3d 467 (8th Cir. 2011). The party seeking to reopen the case bears the burden of
proving that cause exists. In re Root, 318 B.R. 851, 853 (Bankr. W.D. Mo. 2004).
The Bankruptcy Court properly set forth the standard for reopening
Appellant’s Chapter 7 Bankruptcy. The Bankruptcy Court thoroughly discussed
the history of Appellant’s previous attempts to reopen the case, and the various
court rulings which served as a basis to deny the Motion to Reopen. Rather than
abusing his discretion, the Bankruptcy Judge based his decision on sound legal
10

6

analysis:
Reopening is not warranted here because no relief would be forthcoming to
the Debtor. Her request is futile since the relief she seeks is completely
lacking in merit. The Debtor seeks to mount an improper collateral attack on
the prior decisions of the state and federal courts. See Pennington-Thurman
v. Bank of Am., N.A., 486 S.W.3d 471,477 (Mo. Ct. App. E.D. 2016)
(citation omitted)) (“The doctrine of res judicata operates to bar any claim
that was previously litigated between the same parties or those in privity
with them”); Pennington v. Schermer, No. 4:17-cv-1093, slip op. at 3 (E.D.
Mo. April 6, 2017) (citation omitted) (elements are: “(1) the first suit
resulted in a final judgment on the merits; (2) the first suit was based on
proper jurisdiction; (3) both suits involve the same parties (or those in
privity with them); and (4) both suits are based upon the same claims or
causes of action.”), affd, 713 Fed. Appx. 519 (8th Cir. 2018). I also deny
any request by the Debtor for me to reverse the decision of another court as I
do not stand in review of decisions of other courts.
(footnote omitted). Appellant had no valid ground for reopening her Chapter 7
Bankruptcy Proceeding and she has failed to produce any basis for finding that the
denial of her motion was an abuse of discretion.
v Conclusion
Based upon the foregoing analysis, the Court concludes that the denial of
Appellant’s Motion to Reopen was not an abuse of discretion.
Accordingly,
IT IS HEREBY ORDERED that the Bankruptcy Court Order denying

11

6

Appellant’s Motion to Reopen is AFFIRMED.
An appropriate judgment is entered this same date.
Dated this 4th day of May, 2020.

HENRY EDWARD AUTREY
UNITED STATES DISTRICT JUDGE

12

A

MWV*

wi r\cr kpltxurcvr

AWf

v *vi*XttT'U*JCrtlhHd U

Pg 1 of 6

UNITED STATES BANKRUPTCY COURT
EASTERN DISTRICT OF MISSOURI
EASTERN DIVISION
In re:

) Case No. 09-46628-399
)

WILMA M. PENNINGTON-THURMAN, ) Chapter 7
Debtor.

)
)

ORDER DENYING MOTION TO REOPEN BANKRUPTCY CASE
The matter before me is the motion by Wilma Pennington-Thurman (Debtor) to
reopen her Chapter 7 bankruptcy case (Motion to Reopen) to file an adversary proceeding
against Federal Home Loan Mortgage Corporation (“Freddie Mac"), Millsap & Singer,
LLC, and Bank of America, NA. (“BANA”). Together with her Motion to Reopen, the
Debtor also filed a motion to remove state court proceedings to the bankruptcy court, a
motion to change judges for the adversary proceeding, and an adversary complaint. I
afford no relief to the Debtor.

BACKGROUND
This is the Debtor’s third attempt to reopen her 2009 bankruptcy case as part of
her ongoing and seemingly endless litigation related to her home mortgage, foreclosure,
and removal from the property.1
On July 10, 2009, the Debtor filed a petition for relief under Chapter 13 of the
Bankruptcy Code. She listed an ownership interest in her residence located at 8722
Partridge Ave., St. Louis, MO 63147 (Property). Three months later, the Debtor converted
her case to one under Chapter 7 of the Bankruptcy Code. Shortly after filing her Chapter
13 petition, but before her case was converted to Chapter 7, the Debtor commenced two
lawsuits in Missouri state court (2009 Missouri Litigation), alleging fraud and wrongful
foreclosure against Bank of America, NA. (BANA) relating to alleged pre-petition actions
by BANA in connection with her home mortgage. The Missouri court entered a default
judgment, which was later set aside. In January 2010, the Debtor obtained a Chapter 7
discharge. In April 2010,1 approved the Chapter 7 trustee’s compromise and settlement
of the 2009 Missouri Litigation. In accordance with the settlement, the Missouri court
dismissed the 2009 Missouri Litigation with prejudice. The Debtor’s bankruptcy case was
fully administered and closed by final decree on December 29, 2011.
11 make my findings of facts from the judicial records of this and other courts.

SLF 5

Pg 2 Of 6

Starting before the 2014 foreclosure sale of the Property to Freddie Mac, and
lasting well beyond it and into the present, the Debtor has engaged in an unsuccessful
litigation campaign in state and federal courts (seeking relief even from the United States
Supreme Court and the Missouri Supreme Court) contesting every step of the process
for the foreclosure of her mortgage, removal from the Property, and beyond. _ She sued
dozens of parties, including BANA, Freddie Mac, Millsap & Singer, judges, courts,
lawyers, law firms, the United States, and others., She attempted to change the forum for
proceedings and challenged decisions of courtson appeal and .through other efforts. ,For
example, she sought to remove state court actions to federal court and to . reopen
previously decided matters.
v.
,

^

*

i.

The Debtor first sought to reopen her bankruptcy case in 2013 to file an adversary
proceeding against BANA for an alleged violation of the discharge injunction in connection
with the foreclosure proceeding it commenced against the Property. I denied the Debtor’s
request. The Bankruptcy Appellate Panel for the Eighth Circuit and the Eighth Circuit
Court of Appeals affirmed. The United States Supreme Court denied the Debtor's petition
for writ of certiorari and her petition for rehearing.
In 2016, the Debtor filed her second motion to reopen her bankruptcy case. This
time the Debtor sought to proceed against the Chapter 7 trustee and his professionals as
an'effort to defeat the settlement that I approved in 2010. I denied the Debtor’s motion to
reopen.2 The Bankruptcy Appellate Panel for the Eighth Circuit dismissed her appeal of
my ruling based on the Debtor’s failure to pay the docketing fees for the appeal.
r* •

The Debtor's third motion to reopen her bankruptcy case, now before me, appears
to have been triggered by a state court action concerning the Debtor’s efforts to place a
lien on the Property. In the spring of 2017, the Debtor prepared and recorded a Deed of
Trust naming herself as Borrower, Lender, and ^Trustee of the Property, purporting to
place a lien in amount exceeding $80,000 on it. In response, Freddie Mac, with Millsap
& Singer LLC acting as its counsel, filed a document in state court titled “Verified Petition
to Strike Non-Consensual Lien Pursuant to RSMo. § 428.120 and § 428.135, and to Quiet
Title" (2019 Missouri Litigation). In August 2018, the Debtor filed a notice of removal of
the 2019 Missouri Litigation to the federal district court. That court remanded the matter

2 I also denied the Debtor’s motion to waive the filing fee for her 2016 motion to reopen and required the
Debtor to pay the $260 filing fee to the Clerk of the Court. The Debtor never made any payment.
2

SLF 6

b

mum

J-*C/,nyc?

'xv/; a-v/uot

w rvi-ctu Y U/UCtIHieML

Pg 4 of 6

the outset that no relief would be forthcoming to the debtor by granting the motion to
reopen.” Id. (motion to reopen properly denied where purpose was to pursue non
meritorious allegation of a discharge injunction violation); Arleaux v. Arfeaux, 210 B.R.
148,149 (B.A.P. 8th Cir. 1997) (motion to reopen properly denied where purpose was to
bring dischargeability complaint that was “completely lacking in merit”); aff’d 149 F.3d
1186 (8th Cir 1998).
The Debtor cites legal authorities as the bases for the adversary proceeding that
she wishes to file, stating that the adversary proceeding “is filed pursuant to 42 U.S.C.A.
1983; 11 U.S.C. 105 for contempt, 11 U.S.C, 524(a)(1)(2) and the Civil Rights Act of
1964.” She also refers to state and federal court litigation concerning her mortgage and
the Property and alleges misconduct by other courts. For example, she complains about
the 2019 Missouri Litigation. The Debtor also claims that BANA’s lien on the Property
“did not pass through the bankruptcy” (contrary to previous rulings on her 2013 motion to
reopen) and that the 2014 foreclosure saie of the Property was wrongful (although she
litigated and lost that issue in state court). And she complains about my denial of her
2016 request to reopen this case. It is evident that the Debtor’s real goal is to relitigate a
panoply of issues upon which she has already received rulings: the 2019 Missouri
Litigation; the Chapter 7 trustee’s settlement with SANA; and all matters related to the
foreclosure of the mortgage on the Property and her removal from it.
Reopening is not warranted here because no relief would be forthcoming to the
Debtor. Her request is futile since the relief she seeks is completely lacking in merit. The
Debtor seeks to mount an improper collateral attack on the prior decisions of the state
and federal courts. See Pennington-Thurman v. Bank of Am., N.A., 486 S.W.3d 471, 477
(Mo. Ct. App. E.D. 2016) (citation omitted)) (“The doctrine of res judicata operates to bar
any claim that was previously litigated between the same parties or those in privity with
them”); Pennington-Thurman v. Schermer, No. 4:17-cv-1093, slip op. at 3 (E.D. Mo, April
6, 2017) (citation omitted) (elements are: “(1) the first suit resulted in a final judgment on
the merits; (2) the first suit was based on proper jurisdiction; (3) both suits involve the
same parties (or those in privity with them); and (4) both suits are based upon the same
claims or causes of action.”), aff’d, 713 Fed. Appx. 519 (8th Cir. 2018).6 I also deny any
request by the Debtor for me to reverse the decision of another court as I do not stand in
review of decisions of other courts.
6 The Debtor's appeal of the decision in the 2019 Missouri Litigation does not change this result. See
Patrick v. Koepke Constr., Inc. v. Woodsage Constr. Co., 119 S.W.3d 551, 557 (Mo. Ct. App. E.D. 2003)
(citation omitted) ("When a final judgment is rendered by a trial court, it constitutes a final adjudication on
the merits, even though it is appealed, and is therefore res Judicata.").

4

SLF 8

b

oitBicu-'jMfvsofis
Pg 5 of 6

n.x/\y----- \ ■ r(ca'-x\y#-£.-0/ -a.

v ivisaa vuHjcupneni

I will not reopen this bankruptcy case where the Debtor has engaged in tireless
and duplicative litigation in state and federal courts, causing parties and courts to expend
significant resources. The time has come to stop this frivolous and vexatious litigation.
Debtor’s other filings
Because of my denial of the Debtor’s Motion to Reopen her bankruptcy case, I do
not need to consider hef motion to remove state court proceedings to the bankruptcy
court, her motion to change judges for the adversary proceeding, and her adversary
complaint. Even if i separately considered her motion to change judges, I would deny
that motion. The Debtor asserts two bases for her request for a different bankruptcy
judge: (1) bias based on my 2016 denial of her request to reopen her bankruptcy case;
and (2) my authority to enter my 2010 order approving the Chapter 7 trustee’s settlement
of causes of action filed by the Debtor against BANA. I address only what is relevant, the
Debtor’s allegation of bias. Contrary to the Debtor's belief, “[a]n adverse ruling does not
constitute a sufficient basis for disqualification without a clear showing of bias or
partiality." Fletcher v. Conoco Pipe Line Co. (In re Fletcher), 323 F.3d 661, 665 (8th Cir.
2003) (citing Liteky v. U.S., 510 U.S. 540, 555 (1994) (additional citation omitted)). The
Debtor’s appeal of my 2016 order to the Bankruptcy Appellate Panel was dismissed for
failure to pay the appellate filing fee. Now (years later) the Debtor improperly seeks a
second bite at the apple to complain about my ruling and seek a decision that she prefers.
CONCLUSION
For these reasons, it is hereby
ORDERED that the Debtor’s Motion to Reopen is DENIED. Because of my denial
of the Debtor’s request to reopen her bankruptcy case, I do not need to consider the
Debtor’s motion to remove state court proceedings to the bankruptcy court, motion to
change judges for the adversary proceeding, and adversary complaint.
*>

/ / ^

-;V..........
rS s~-

DATED: October 23, 2019
St. Louis, Missouri

"Barry S. Schermer
United States Bankruptcy Judge

cte

5

SLF 9

0

\ i

RELATED STATE COURT CASES

0822-CC01654 (Missouri Nov 13, 2008) Wrongful Foreclosure Set Aside. Wilma PenningtonThurman v. Bank of America, N. A.
0922-CC08255 (Missouri July 2016) Wrongful Foreclosure against Bank of America, N. A.,
Wilma Pennington-Thurman v. Bank of America, N. A.
0922-CC08256 (Missouri July 2016) Misrepresentation as to Title to Property. Wilma
Pennington-Thurman v. Bank of America, N. A.
1422-CC09976 (Missouri Nov. 2014) Wrongful Foreclosure against Bank of America, N. A. and
Millsap & Singer, P. C., Wilma Pennington-Thurman v. Bank of America, N. A. and Millsap &
Singer, P. C. (Missouri Appeal Feb. 2015) Appeal to the Missouri Court of Appeals, E.D.,
Appeal dismissed. ED 102300, Appeal of Wrongful Foreclosure case 1422-CC09976, (Missouri
Appeal 2016) ED 103032,486 S.W. 3d 471 (Mo. App. E.D. 2016) Aff d in part, Dismissed in
part.
1522-AC00946 & 1522-AC00946-01 Remand Unlawful Detainer Action from 4:15-CV-00381
Federal Home Loan Mortgage Corporation v. Wilma Pennington-Thurman, (Missouri Appeal
No. ED 105058, (Missouri Appeal July 3,2017) Home sold to Federal Home Loan Mortgage
Corporation.
State ex rel. Wilma Pennington-Thurman v. Hess, (Missouri Supreme Court) No. SC 96526,
Writ of Prohibition denied.
1722-CC0867 Wilma Pennington-Thurman v. Parlap, Inc., et al. Injunction to stop eviction filed
July 28,2017 and August 9,2017. Both motions denied.
ED 105981, Appeal to Reopen 2009 “State Court Cases”, Rehearing denied June 27,2018.

